<html>
<title> - [H.A.S.C. No. 113-33]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-33]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                           BUDGET REQUEST FOR

                    U.S. SPECIAL OPERATIONS COMMAND

                   AND U.S. SPECIAL OPERATIONS FORCES

                               __________

                              HEARING HELD

                             APRIL 17, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 




                  U.S. GOVERNMENT PRINTING OFFICE
80-762                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                Peter Villano, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2013

                                                                   Page

Hearing:

Wednesday, April 17, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request for U.S. Special Operations 
  Command and U.S. Special Operations Forces.....................     1

Appendix:

Wednesday, April 17, 2013........................................    21
                              ----------                              

                       WEDNESDAY, APRIL 17, 2013
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR U.S. 
     SPECIAL OPERATIONS COMMAND AND U.S. SPECIAL OPERATIONS FORCES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

McRaven, ADM William H., USN, Commander, United States Special 
  Operations Command.............................................     4
Sheehan, Hon. Michael A., Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict, Office of the 
  Secretary of Defense...........................................     1

                                APPENDIX

Prepared Statements:

    Langevin, Hon. James R.......................................    25
    McRaven, ADM William H.......................................    38
    Sheehan, Hon. Michael A......................................    26

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Langevin.................................................    57
    Mr. Thornberry...............................................    60
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR U.S. 
     SPECIAL OPERATIONS COMMAND AND U.S. SPECIAL OPERATIONS FORCES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Subcommittee on Intelligence, Emerging Threats and 
                                              Capabilities,
                         Washington, DC, Wednesday, April 17, 2013.
    The subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. A congressional hearing actually started 
one minute early. That doesn't happen very often, but I 
appreciate our witnesses being here. Mr. Langevin is on the 
floor dealing with the cyber bill, and we are going to have 
votes on that bill in about an hour. So we are going to move 
things along and cover what we need to cover, but once we have 
votes, we are going to be away for quite a while, and so I want 
to move along.
    I will ask unanimous consent that any opening statements of 
Mr. Langevin and I be included in the record at this point.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 25.]
    Mr. Thornberry. Thanks to both our distinguished witnesses 
for being here. We have heard from both of you many times 
before, and with that I want to turn it to you to--and without 
objection, your complete written statement will be made a part 
of the record. I want to turn to you to summarize in whatever 
comments you would like to make, and then we will be able to 
ask questions for the time we have available.
    Thank you both for being here. I don't know who goes first, 
but Mr. Sheehan, please proceed.

 STATEMENT OF HON. MICHAEL A. SHEEHAN, ASSISTANT SECRETARY OF 
  DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT, 
               OFFICE OF THE SECRETARY OF DEFENSE

    Secretary Sheehan. Thank you very much, Mr. Chairman. I 
will be very brief, as you have a copy of my extended remarks 
for the record. I first want to thank you and the members of 
the committee and your staff for the support you have provided 
to the special operations community so that we can help 
implement the defense strategy to achieve our national security 
objectives. We very much appreciate it, and I will be specific 
about some of that support at the end of my remarks.
    First of all, as I have spoken before here, talked about 
our new defense strategy, talked about innovative small 
footprint, low-cost solutions to achieve our defense goals, and 
of course the special operations community is ideally tailored, 
structured, and trained for that mission. I want to talk a 
little bit about the threat and a couple, how we--how I look at 
how the construct of our strategy, and end with a few comments 
about the authorities and funding that will enable us to 
execute that strategy in the months and years ahead.
    First of all, on the threat, Mr. Chairman, we talked about 
this several times before. I always like to reiterate on the 
threat that the threat to the homeland, in my view, continues 
to emanate primarily from the AfPak [Afghanistan-Pakistan] 
region and Yemen, the two traditional strongholds of Al Qaeda, 
and from those two areas, even as we look around the world 
where Al Qaeda pops its head or we see terrorism even in our 
home streets in Boston, that those two traditional strongholds 
remain a constant concern for our community, continue to pound 
Al Qaeda's capability where they have demonstrated both the 
capability and intent to conduct the strategic attacks from 
those two areas.
    Of course we have evolving new areas of concern of Al 
Qaeda, particularly in Africa, we have known about Somalia for 
several years, but now since the collapse of northern Mali and 
the intervention there by AQIM [Al Qaeda in the Islamic 
Maghreb] with the Tuareg rebellion, we have a new threat there 
that is compounded by the instability of the Arab Spring, the 
instability in Libya after the fall of Gadhafi, and the flow of 
weapons that create a confluence of factors in northern Mali of 
great concern, and as you are aware, Mr. Chairman, the French 
are leading an effort there to try to put that situation back 
on track. I will talk a little bit about, more about that in my 
remarks on our strategy.
    In Syria, of course, we are also very concerned about the 
strengthening of al-Nusrah Front and its clear links as an Al 
Qaeda affiliate, its clear links to other Al Qaeda 
organizations, and its potential as an ominous threat to the 
homeland is of major concern to our community.
    Let me talk a little bit about the construct of how I look 
at the strategy. I don't know whether it is because I am an 
infantryman or my Jesuit training, I always look at things in 
threes. Three aspects of it. One is the direct-action and 
lethal-action aspect of our counterterrorism strategy, and that 
is, I am talking about the U.S., unilateral direct-action 
capability. The second has to do with building partner capacity 
so that our partner nations can take action to take down 
terrorist individuals themselves, and the third aspect of it 
has to do with denying sanctuary to terrorists.
    Each of these come together to form a cohesive 
counterterrorism strategy in different parts of the world. For 
instance, in Yemen we conduct action there to take down Al 
Qaeda leadership, we also work with the host country to build 
their capacity so they can conduct the job within their 
territory. We also work with them to deny space for Al Qaeda. 
All three aspects of the strategy has come together in Yemen, 
and, quite frankly, been very successful in the last year and a 
half, particularly with the Hadi, new Hadi regime.
    In Somalia we also see a U.S. unilateral action there, 
building capacity among partners in the region to take action 
and also in the third category of denying space, we are using 
United Nations with African peacekeeping forces to deny space 
for Al Qaeda sanctuary. That model is particularly important 
because we are going to have aspects of that model of the 
strategy as we look at Mali. A combination of the lead direct 
action being done by the French, with us in support, training, 
advising, assisting partner nations so that they can take 
action, and, thirdly, working with the United Nations so that 
they can move in behind the French, occupy key towns, and deny 
the space to Al Qaeda. If we can pull all three aspects of this 
strategy together, our own support for the French with direct 
action, supporting with 1208 and other programs the capacity of 
our partners, and finally bringing in--rather than us having to 
occupy space with U.S. conventional forces, using multilateral 
forces like the U.N. and other nations, and building their 
capacity enables them to deny space to Al Qaeda and allows us 
to do the higher end action to go after HQ nodes and high-value 
targets. That is how I look at the construct of the strategy.
    In terms of executing that strategy, I would like to 
conclude by saying, Mr. Chairman, that we could not execute 
this strategy effectively without the authorities that have 
been provided to the Department of Defense since 9/11, in my 
view, because I have experience in dealing with the pre-9/11 
authorities for DOD [Department of Defense] which were scarce; 
post-9/11, the 1206, 1207 N, GSCF [Global Security Contingency 
Fund], which is still evolving but showing some promise, 1208 
and other authorities that are provided the Department of 
Defense enable us to build the capacity of our partners so that 
we can execute the strategies, coupled with our ability to 
support U.N. and other nation-states provide security, we have 
the piece of the strategy. It is not perfect, and I would 
like--I hope that we can consider, the executive branch and the 
Congress working together, as we have over the last 10 years, 
can continue to improve those authorities, hopefully make them 
permanent, hopefully have a steady stream of funding, and also 
we have some proposals to fix a few of the gaps that still 
exist in those authorities, particularly regarding providing 
support to MOI [Maintenance Operating Instruction], to provide 
minor MILCON [Military Construction], to provide multiyear 
funding, and a little bit more flexibility in order to have the 
types of relationships that Admiral McRaven has articulated so 
well, the SOF [Special Operations Forces] partnerships and the 
partnerships with the countries around the world that enable us 
to execute this counterterrorism strategy consistent with the 
new defense strategy of the low footprint coalition approach, 
and we really believe that if we can get these authorities 
right and continue to modify them and fine-tune them it will 
enable us to be even more effective in the years ahead and 
continuing to crush Al Qaeda capability around the world like 
we have been successfully done for the last 11 years, hopefully 
we will be able to do it for the next 11 years because I think 
we are going to be at it for a while.
    Mr. Chairman, I will conclude right now, as I know we are 
short on time. I will turn it over to Admiral McRaven with your 
permission and look forward to your questions. Thank you, sir.
    Mr. Thornberry. Thank you.
    [The prepared statement of Secretary Sheehan can be found 
in the Appendix on page 26.]
    Mr. Thornberry. Admiral.

  STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, UNITED 
               STATES SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Thank you. Chairman Thornberry, 
distinguished members of the committee, I appreciate the 
opportunity to come here today and speak about the magnificent 
work being done by the men and women of the U.S. Special 
Operations Command, and I am pleased to be joined by my 
colleague ASD [Assistant Secretary of Defense] Mike Sheehan. 
Mike has been an absolutely fabulous partner as we have kind of 
gone through this experience together over the last year, 18 
months, and he has just provided me invaluable support to the 
SOF enterprise. Mike, thanks very much.
    Sir, since taking command I am proud to say that we have 
continued the great work that was initiated by Admiral Eric 
Olson, but at the same time we have adapted to the changing 
strategic and fiscal environment to keep SOF relevant now and 
in the future. In Afghanistan we established a new Special 
Operations Forces command structure which brought the various 
NATO [North Atlantic Treaty Organization] and U.S. SOF elements 
into alignment under two star headquarters. This has allowed us 
to kind of have a common view of the enemy and synchronize our 
SOF to achieve a common end state. This change has made SOF 
even more effective than ever before. Partnered with our Afghan 
SOF, we have continued to attrite the enemy leadership while at 
the same time building and training Afghan security forces so 
they can stand on their own against this very determined 
threat.
    Globally SOF is in approximately 78 countries around the 
world, helping to build partner capacity so that the host 
nation can deal with their own security problems. I recently 
returned from Colombia and the Philippines, where our long-term 
investment with their SOF has helped dramatically change the 
security situation in those countries. I believe that these 
efforts; that is, building allied SOF capacity and capability, 
represent the best approach to dealing with some of the world's 
more complex security problems.
    In support of the Secretary's Defense Strategic Guidance, 
SOCOM [Special Operations Command] is working to strengthen 
these international partnerships and to build lasting networks, 
both formally and informally, so that we or our allies can 
create a secure environment in unstable areas and, if 
necessary, react to emerging crises rapidly and effectively. In 
all cases, those Special Operations Forces deployed to foreign 
lands are working for the geographic combatant commander with 
the approval of the chief of mission and always in support of 
U.S. policy goals.
    Finally, I have made caring for our force and their 
families my top priority. In the past year my command sergeant 
major and I have met with soldiers and their families from 
around the SOCOM enterprise. We have listened to their 
concerns, and with the support of the services, we are 
aggressively implementing programs and plans to help with the 
physical, mental, and spiritual well-being of the force. We 
have a professional and moral obligation to take care of our 
warriors and their families, and we greatly appreciate the 
support of your committee and other members on the Hill in our 
efforts to take care of these men and women.
    Thank you again for your commitment to the soldiers, 
sailors, airmen, and marines, and the civilians of the 
Department of Defense, and specifically to those great warriors 
who make up the U.S. Special Operations Command, and sir, I 
look forward to taking your questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 38.]
    Mr. Thornberry. Thank you, and thank you both, and 
certainly one of the issues I am primarily interested in is the 
authorities issues that Mr. Sheehan raised, and we want to 
pursue that with you. But let me turn the first 5 minutes over 
to Chairman Kline for any questions he would like.
    Mr. Kline. Well, thank you, Mr. Chairman, and thank you 
gentlemen for being here, your testimony, your service, 
outstanding successes that the Special Operations Forces have 
had around the world.
    I want to talk about authorities as well, but in a little 
different context. I think it has always been a little bit 
confusing--and I know you can reassure me, but I guess I am 
looking for that reassurance--in how relationships work, and 
let's use an example because we talked about Mali and the 
threat of AQIM, and that is a much larger area than Mali, and 
we have an AFRICOM [Africa Command], and we have Special 
Operations Command, and we have various chiefs of mission, 
ambassadors around. In Mali particularly we have an interesting 
situation of the French. Who is reporting to whom and how and 
why? How is that working with your command and these other 
entities? Let's just use that Mali as an example so I can get 
the players in place in my head.
    Admiral McRaven. Sir, I will take it from the military kind 
of chain of command, and then I will ask Secretary Sheehan to 
address maybe the broader context. Sir, as the U.S. Special 
Operations Command, we are really a supporting commander to the 
geographic combatant commander, whoever that happens to be. In 
the case of your analogy, U.S. Africa Command, currently 
General Dave Rodriguez. So my job is to provide him forces to 
carry out the missions that Africa Command gets assigned. At 
the end of the day the chief of mission is the President's 
representative, U.S. representative to that country. So as I 
mentioned in my opening comments, nothing that I do in support 
of AFRICOM or that AFRICOM does in support of whatever the 
chief of mission decides in Mali, it is all done through the 
chief of mission and with the chief of mission's approval. So 
the chain of command actually from our standpoint is pretty 
elegant. So my role is easy. I am a supporting commander. 
AFRICOM and the chief of missions of all the various nations in 
Africa, they work together very, very closely, and so while 
from the outside it may appear to be a little convoluted, I 
think those of us that work in it day in and day out realize, 
frankly, it is pretty elegant and pretty effective.
    Mr. Kline. Who is responsible for the coordination with the 
French?
    Admiral McRaven. Sir, I think on the military front again--
yes, sir, on the military front, so AFRICOM would be in charge 
of coordinating with the French within that region. Again, on 
the policy side, the chief of mission would work with their 
French counterparts to work the policy piece there. So before a 
U.S. entity could come into Mali, for example, we would have to 
have the U.S. chief of mission's approval to have country 
clearance to come in, and then once that is done then again the 
coordination with the chief of mission and their country team 
with the U.S. Africa Command, and then if Africa Command needs 
resources General Rodriguez----
    Mr. Kline. Which presumably they do since they don't have 
any.
    Admiral McRaven. Yes, sir, that is correct.
    Mr. Kline. So you are the resources, your forces are there, 
and are you then constantly working back through somebody in 
Africa Command to work with the French or is there sort of 
direct communications, and how does that work?
    Admiral McRaven. Yes, sir, so there is--I would say there 
is both formal and informal communications. So the formal 
communications--well, both formal and informal--come from 
Africa Command to their French counterparts. So I don't do 
anything that circumvents the U.S. Africa Command chain of 
command and their linkages with the French. What I do receive 
on an informal basis because we have great relationships with 
the French Special Operations Forces is we dialogue with them 
routinely, and they discuss, you know, where they are in the 
fight and how things are going, and then it gives us an 
opportunity to work with Africa Command as well and say, hey, 
here is what we are hearing from our French counterparts, but 
at the end of the day the decisions regarding military forces 
in Mali are all worked through the U.S. Africa Command.
    Mr. Kline. Okay. It seems to me that might be a little 
awkward when you have French special operating forces taking 
action and presumably some of your forces taking action.
    Admiral McRaven. Sure.
    Mr. Kline. And somebody in Europe is trying to sort this 
out. It just looks to me like there should be direct 
coordination, and I am--frankly I am assuming there has to be--
--
    Admiral McRaven. Yes.
    Mr. Kline. There is. Otherwise you are going to be shooting 
each other.
    Admiral McRaven. Yes, sir. There is very close coordination 
on the ground. So if I--maybe I didn't portray that correctly. 
Tactically, of course, the U.S. forces and the French forces 
and the African forces that are there in Mali on the ground, 
there are tactical communications going on day in and day out 
so that we deconflict any movement or--and, again, any 
operational----
    Mr. Kline. But you don't have the equivalent of a joint 
operations center to deconflict this, it is just talking to 
each other?
    Admiral McRaven. Well, sir, I would prefer to take that 
offline. Suffice it to say, our coordination is very good at 
all levels, tactical through strategic.
    Mr. Kline. Okay. Thank you.
    Admiral McRaven. Sure.
    Mr. Kline. I appreciate that, and I don't know maybe, I 
don't know if we are going to get to offline today or not, 
depending upon--yeah. But at some point I do want to have that 
discussion about how that actually works.
    Admiral McRaven. Yes, sir.
    Mr. Kline. I yield back.
    Mr. Thornberry. Mr. Sheehan, do you have anything you want 
to add on this topic while we are one it?
    Secretary Sheehan. Yes, sir, I think on the interagency 
level, the planning is coordinated at the White House and the 
National Security Council staff, the NSS, the national security 
staff, where those policies are brought together and consensus 
is built, and then that policy is directed down to the 
ambassador as the head of mission, and that ambassador makes 
sure that all the key players, the defense players, the 
Intelligence Community, State work together in the same 
direction, and when there is conflicts, they will be resolved 
in the interagency process, and it works fairly well. But in 
each country it is a different construct.
    In Somalia, for instance, there is a U.N. [United Nations] 
operation that we embed with that operation, and we provide, we 
can help support and facilitate that, we help the nation-states 
that are--we help train and equip them, and we assist the U.N. 
operation to function. That keeps it all closely wired.
    In Yemen, another key theater, we work directly with the 
host country, and again the country team, the ambassador pulls 
together the different elements of the interagency, the 
intelligence, primarily intelligence, State, and defense, and 
makes sure they are all working together in a common objective. 
So in each country it is a little bit different depending on 
the actors involved and who is really the lead on the security 
front. In Yemen it is the host country, in Somalia it is the 
U.N., and in Mali right now it is the French, but they will try 
to transition over to the U.N., and ultimately everywhere you 
go you want to hand it back over to the host country but when 
they are able to do it.
    Mr. Kline. Thank you.
    Mr. Thornberry. Filling in for Mr. Langevin, and I 
appreciate it, the gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and I have a statement 
here that I will just submit for the record. Thank you all so 
much for being here. Good to see you, Admiral, Mr. Sheehan.
    In just thinking about the size of the Special Operations 
Forces, and the fact that it has pretty much doubled since 9/
11, I also noticed that in terms of funding, the O&M 
[Operations and Maintenance] budgets have increased, but 
actually in terms of the RDT&E [Research, Development, Testing 
& Evaluation] request that that is $29.3 million less than 
2013. I know, you know, we are in--we are trying to be more 
efficient in terms of our budgets, but I am also wondering in 
terms of the doubling and then we are moving up certainly by 
2015-17, how does that mesh? Are we, you know, really not 
thinking ahead as well as we should?
    Admiral McRaven. Yes, ma'am, I would tell you I think it is 
a little out of balance, and this is something my staff and I 
talk about quite often is how do we get the research and 
development funding line kind of in balance with our broader 
procurement line, and of course with our O&M, and candidly, you 
know, the last 12 years we have been so focused on readiness as 
a function of our combat force that our research into kind of 
future technology has waned a little bit, but I will tell you, 
we recognize that, and my staff and I have these conversations 
a lot. We are trying to figure out how to make that more in 
balance, and I think we are getting there, and as we move 
forward in the next couple of years hopefully we will bring 
that more into balance because it is about making sure that we 
have an advantage, if you will, a technological advantage over 
our, both our enemies, and frankly there is an expectation that 
our technology is above the conventional force, the general 
purpose force because they want special technology to be 
applied in special cases. So----
    Mrs. Davis. Does DARPA [Defense Advanced Research Projects 
Agency] pick that up for you in this case?
    Admiral McRaven. I am sorry, ma'am?
    Mrs. Davis. I mean, are you able to utilize through DARPA--
--
    Admiral McRaven. Oh, yes, ma'am.
    Mrs. Davis. So that----
    Admiral McRaven. Yes, ma'am, absolutely.
    Mrs. Davis [continuing]. Maybe it doesn't all have to come 
out of SOF's budget?
    Admiral McRaven. Well, absolutely. We are all about other 
people's money as my comptroller so oft is wanting to say, 
trying to figure out where there are other pots of money, and 
DARPA has been a great partner with us. But as you know, DARPA 
is kind of an early phase----
    Mrs. Davis. Right.
    Admiral McRaven [continuing]. Kind of blue sky approach in 
terms of looking at the highest and the toughest problem sets. 
But we have some pretty tough problem sets, and they have been 
very supportive of them.
    Mrs. Davis. I wanted to just commend you as well, I know 
that you are focused on families.
    Admiral McRaven. Yes, ma'am.
    Mrs. Davis. And recognizing the unique lives that the men 
and women have.
    Admiral McRaven. Yes, ma'am.
    Mrs. Davis. As you think forward for that, I know that you 
are feeling that the services offered by the Navy, Marines, 
that they are not quite adequate, and in what specific way do 
you feel that you need to enhance the services for the men, and 
for the families really?
    Admiral McRaven. Yes, ma'am. Well, I am a product of my 
experience. I came in in 1977, and most of the SEALs [Sea, Air, 
Land] that raised me were Vietnam veterans, and candidly we 
didn't do as good a job by them and their families as I think 
we should have, and I am committed, and frankly I know the 
service chiefs are absolutely committed to taking care of our 
soldiers, sailors, airmen, marines, and the DOD civilians that 
have been supporting us. I think it is--I would characterize it 
a little differently. I will tell you, the services are doing a 
marvelous job, but it is a function of scale. The scale of my 
population base is smaller, and therefore with a little bit of 
extra funding I can potentially help out the families and the 
service members a little bit more, but I rely very, very much 
on the service support, the Army Strong Bonds program, the Navy 
Safe Harbor program, the Marines Wounded Warriors program, all 
those sorts of things we tap into, and we are very much a part 
of, and the services have been very, very supportive. So we are 
just finding, though, that as our deployments continue into 
Afghanistan, and of course that really hasn't changed for us as 
the conventional forces draw down, and we assume of course we 
will draw down as well, but our percentage of the population 
base of our deployed forces is still fairly large over there, 
so--and, frankly, I expect that after Afghanistan we will still 
continue to be deployed at a very high rate, so I am looking to 
the future to make sure we are postured well to take care of 
those soldiers and their families.
    Mrs. Davis. Can you comment very briefly on the role of 
women in joining your ranks?
    Admiral McRaven. Yes, ma'am. Happy to do so. One, the first 
comment I will make is they are just right now performing 
magnificently across the board, and I don't think that comes--
certainly it doesn't come as a surprise to you or anybody else. 
But in our case we are putting them in harm's way every single 
night. As you know, they are not assigned to our infantry 
units, but they are tasked to them, so particularly our 
cultural support teams where we have young ladies that will go 
with our Rangers and our SEALs out on a target so that they can 
talk to the women and the children, we just find that 
relationship is much stronger, much more important, but as we 
go forward, and I have been given the task, and I have to 
report back to the Secretary of Defense in May on my plan to be 
able to incorporate women, bring women into the historically 
male-only military operation specialties, so the Rangers, the 
SEALs, the Special Forces, those sorts of things. So I am 
building a plan to do that. We are going to go through the 
whole, you know, what we call the DOTMLPF [Doctrine, 
Organization, Training, Materiel, Leadership and Education, 
Personnel and Facilities], the whole doctrine and the 
operations and the training and the deployment of the forces to 
take a look at can we, in fact, do that. We are going to have a 
plan, we are going to build a plan to do that, but then I have 
got to find out whether or not we can actually pull it off, but 
I am committed to doing that because I have seen the value of 
it.
    Mrs. Davis. Thank you.
    Admiral McRaven. Yes, ma'am.
    Mrs. Davis. Thank you, Mr. Chairman.
    Mr. Thornberry. Dr. Heck.
    Dr. Heck. Thank you, Mr. Chairman, and thanks to both of 
you for the incredible service that you have rendered to our 
Nation over the years. You know, I think it was back in the 
2009 House version of the NDAA there was some discussion about 
whether or not the 12 statutory core activities of the SOF 
community should have been reevaluated to see whether or not 
they match with what the current missions were, whether or not 
they were outdated, and it was dropped, it didn't make it 
through all the way, but I am curious now going on 4 or 5 years 
later, are the 12 statutory SOF activities representative of 
the missions that the SOF community is executing, and does that 
list of 12 in any way hamper your ability to do activities or 
missions that you think you should be doing but aren't 
covering?
    Admiral McRaven. Sir, I think not surprisingly the wisdom 
of the original 12 has kind of proved out. I don't see any need 
to change the 12 core missions. Now maybe--you know, maybe it 
is a self-fulfilling prophecy. We obviously, we do the civil 
affairs and we do the information operations and obviously the 
direct action and the strategic reconnaissance and all of those 
components of the 12 mission sets, we do them, and we do them 
exceedingly well, and I think it really does a nice job of 
framing today's requirements for Special Operations Forces. So 
when we talk about building partner capacity, and this is an 
area where we know that the Special Forces piece, the indirect 
approach is important, but you begin that by building partner 
capacity, and sometimes building that partner capacity requires 
putting civil affairs folks on the ground so that they can 
build the relationships, they can dig wells so that we can have 
fresh water so that, again, we begin to build the 
relationships, and from the relationships you begin to build 
the security, and then from the security you begin to expand 
that out, and before long you have brought down the extremism 
because you have created a good environment within whatever 
area you were operating in. So they are very mutually 
supportive between, again, the indirect approach and the civil 
affairs and the information operations, and then of course if 
you have to make that transition to going kinetic, then the 
direct action and the strategic reconnaissance and those sort 
of things make again for both a nice continuum, and I think 
they frame SOF very well.
    Dr. Heck. Mr. Sheehan, anything to add?
    Secretary Sheehan. Yes, sir, I agree with the Admiral that 
the 12 do stand the test of time. However, within that there is 
a never-ending evolution of thinking within the special 
operations community since its inception in the 1950s and the 
Army in the 1960s and the Navy and more recently with the 
Marine Corps as well. Always revising, rethinking the missions 
and the emphasis. The emphasis changes over time based on the 
mission set that is handed the force. So over the last 10 years 
focus on the activities in Iraq and Afghanistan, there was an 
emphasis on certain types of activities, and now as we shift to 
a different defense strategy and are being asked to do 
different things, there is always a relooking at those 
missions, and I know within the Special Forces community at 
Fort Bragg they are relooking the irregular warfare, the 
unconventional warfare aspects of it and how they retool to do 
that for a capacity that is global, and the SEALs and Air Force 
are looking at that as well.
    So in the Special Operations community, what makes us 
special, I always like to think of it in two areas. One is a 
very high, intense ability to do military action and 
particularly in denied areas, whether that be over air or land 
or sea, you have the special capability. But the other part of 
it that Admiral McRaven alluded to is also the capability, the 
language and cultural capability to work with partners in order 
to execute that mission, and again that goes back to the 
original creation of U.S. Army Special Forces, their ability to 
jump behind Soviet lines to organize resistance. So I think 
there is always this evolution within those major constructs, 
and it is healthy, and we are always trying to adjust to stay 
ahead of the curve, and right now there is a renewed focus on 
the unconventional warfare aspects of it, getting back to those 
fundamentals, and regionally realigning ourselves as we shift 
away from the enormous demands put on the force for the two 
wars in Iraq and Afghanistan.
    Dr. Heck. And then just quickly my last few remaining 
seconds, Admiral, do you know, is SOCOM still on track to issue 
its contract selection for the ground mobility vehicle in May?
    Admiral McRaven. Yes, sir, we are.
    Dr. Heck. Thank you. Thank you both. Yield back, Mr. Chair.
    Mr. Thornberry. Getting back, you all kind of talked around 
it a little bit. I noticed there has been some press stories, 
defense budget going down, withdrawing from Afghanistan, yet 
funding for special operations is going up. Can you explain to, 
you know, kind of on a high level why funding for special 
operations needs to go up when these other things are 
happening? And is the--I think this kind of gets to what you 
were talking about, Mr. Sheehan, is the composition of special 
operations funding shifting from more emphasis in one area to 
less emphasis in another?
    Admiral McRaven. Sir, on the funding side, obviously we 
will participate in the budget drills as the Services do. So 
while right now with the current President's budget we are very 
well taken care of, and obviously we strongly support the 
current President's budget, but it remains to be seen whether 
or not as we go through the next several years and how 
sequestration will affect us, whether or not we will take some 
cuts. My expectation is we will take some cuts. Again that 
remains to be seen what that will look like right now.
    Having said that, I think we make a pretty good argument 
for the value of Special Operations Forces, and I go back to 
the Defense Strategic Guidance that was issued under Secretary 
Panetta and that we are now relooking under Secretary Hagel, 
but in either case I think the value of a, you know, small 
force with a light footprint that is culturally attuned, that 
is partnered, that has a great network is going to meet a lot 
of the challenges out there for the Nation, and therefore your 
investment and your return on that investment is pretty good.
    If you look at the Department of Defense budget now, 
special operations is about 1.7 percent of the Department of 
Defense budget, so when I have an opportunity to make my case 
to the Chairman and to the Secretary about the return on that 
1.7 percent being in 78 countries around the world, building 
partner capacity where we can allow other nations to take care 
of their problems so that then we don't have to expend more 
U.S. dollars going in to solve those problems, then that makes 
for, again, a pretty powerful argument, and therefore I think 
there is a willingness to invest in SOF as we look forward to 
the challenges of the future.
    Mr. Thornberry. Admiral, when you were here before the full 
committee on March 6th, you mentioned some problems with the 
Leahy human rights amendment, and I was wondering if you could 
just elaborate on some of the challenges that that has 
presented to you and your folks as you try to do these things 
in various parts of the world.
    Admiral McRaven. Well, sir, first, thanks for raising that 
issue on March 6th because it has created some momentum and 
some positive momentum forward. The Office of the Secretary of 
Defense is working closely with State Department to figure out 
how we can improve the process, and a lot of these, as I said 
on March 6th, we are very supportive of the tenets of the Leahy 
amendment. We understand, we don't want to be working with 
units that have committed gross violations, which is the 
language in the Leahy amendment.
    Our concerns about the language and the spirit of the Leahy 
amendment and the process has to do with a couple things. 
First, the amendment itself has kind of the, kind of poison 
person/poison unit problem, so one, if an allegation, and it is 
an allegation, it is not a finding of wrong, and it is not a 
standard that would hold up in a court of law, but it is an 
allegation against an individual, then you have to vet that 
individual, but then you are also required to vet the unit. So 
if there is an allegation against one individual in the unit, 
then basically you kind of have to stand down that unit for a 
while as you are trying to find out whether or not you can 
conduct training with that unit. So that becomes one of the 
problems.
    There is also not a sunset clause, if you will. So once a 
unit is determined several years ago to have been, to have had 
gross violation of human rights, how long before now they are 
clean and you can begin to stand them up again, so this is--or 
begin to work with them again. We are working through all of 
those issues, and again I am confident right now based on, 
again, some of the discussions that that generated on March 6th 
that we have a process for moving forward with that, and so we 
appreciate this committee and the full committee's interest in 
moving the Leahy amendment to an area where it will be 
representative of the basic tenets of the Leahy amendment but 
also give us the ability to move quickly to train our 
counterparts.
    Mr. Thornberry. Mr. Sheehan, expanding out from that just a 
little bit, I am kind of reminded of the debates we had in the 
1980s about dealing with authoritative governments against the 
Soviets. If we are thinking about your strategy, building 
partnership capacity, some of the people we want to build 
partnership capacity on may not, you know, be our ideal sort of 
folks. And so as you are weighing that, how does that work, 
going ahead?
    Secretary Sheehan. Thank you, Mr. Chairman. We by 
definition in the special operations world are almost 
exclusively going into areas that are torn by wars, internal 
conflicts, breakdowns of society, and those types of tensions 
that we enter into almost always affect the security and 
political institutions of the countries we are working with. So 
you are exactly right, we deal, we are dealing with broken 
institutions most of the time, and they don't have great 
records.
    My experience, my personal experience in the 1980s with 
some of these forces as a young Special Forces officer was that 
our relationship with them dramatically and steadily always 
moved in the direction of improving their respect for human 
rights and respect for rule of law and the democratic 
institutions which are political, the framework of our strategy 
was always a part of. So as Admiral McRaven said, it is always 
in our interest to, when we work with partners, we want those 
people to share the same values that we have.
    Having said that, we need to have flexibility, we need to 
have speed of action so that we can continue to advance the 
U.S. defense interests while we move forward in countries that 
are broken, and have the confidence in the operators we have on 
the ground that we are going to ensure that we are working with 
the best possible partners we have because in the long term it 
is those units and forces that respect the rule of law and 
human rights are going to be ultimately more successful, but we 
do need to make sure that we understand the realities we are 
working in, and some of the countries where we have some very, 
very important national security interests evolving right now 
have some of the worst records, and I will mention one right 
now to bring focus to it, and that is Nigeria. Nigeria has a 
very checkered--that is a generous term--record in this regard. 
However, we have some very important interests in Nigeria, not 
only oil, but as one of the most important countries on the 
continent, we have got to find a way to work with the Nigerians 
and move them forward in a proper way to address those 
interests, strategic interests that we share.
    Mr. Thornberry. Well, I think so, and/or back to Chairman 
Kline's point, Mali is a messy situation, you know. It is a 
little hard to figure out who to build partnership capacity 
with, but we are not going to make things better by standing 
off and doing nothing until they get their act together, if you 
will.
    Mrs. Davis, do you have other questions?
    Mrs. Davis. Just to follow up briefly because I think in 
talking about the capacity building and I know that there is, 
you are requesting more dollars in terms of the joint combined 
training, I know how immensely proud you are of the men and 
women who are part of special operations and the tremendous 
skill sets that they have, but I wonder if you think out a few 
years with the importance of language skills and the diplomatic 
skills, all that is combined with that, are we putting enough 
emphasis on that as people move into that ability set because I 
think that you might find people who have the great physical 
skills but perhaps have not had the opportunity, especially 
with the tempo that we have been dealing with, to go to 
language school and to be able to develop so that their 
language skills are not just that they can read or speak, you 
know, in a limited way, but they actually get the nuance, and 
how are we doing that? Where are we in that effort, and think 
ahead 5 years, are we going to have a lot of people ready to do 
that?
    Admiral McRaven. Well, I will take the first shot at that, 
ma'am. First, we are putting a tremendous amount of emphasis on 
our language skills. The Army Green Berets, of course, have 
always had that as one of their core competencies, but as we 
look forward across the special operations community, we find 
that Navy SEALs need that if they are working in the Pacific 
area or down in AFRICOM as well, the Air Force 6th Special 
Operations Squadron who goes down to train other air forces 
need to have those skills. So, frankly, across the community if 
we are going to be that small, light, agile force that is 
networked that has both the language skills and the cultural 
skills, and this is a big part of it as well, so we are 
teaching, particularly in our JFK school but also in some of 
our schools, our Navy, Marine Corps, and Air Force schools, we 
are teaching broad cultural language skill sets that allow all 
of our SOF operators to go down range and do this. So I do 
think we are putting a--well, I know we are putting a large 
emphasis on this, and part of this gets back, as Secretary 
Sheehan said at the beginning, we are really trying to change a 
little bit of the narrative about who Special Operations Forces 
are. I would tell you today, and really for the last, you know, 
12 years in this fight, you have almost said SOF equals CT 
[Counterterrorism], counterterrorism, and frankly SOF has a 
much, much broader portfolio and mandate than counterterrorism. 
We are very proud of our counterterrorism skills. We think we 
are the best in the world, and we will continue to be the best 
in the world, and I am committed to that, but at the end of the 
day, we want to get to the point where we are not having to go 
out and capture and kill a high-value target because we have 
put the nation where the extremism was rising, we have put them 
in a position where they can deal with their own problems, and 
that really is about building that partner capacity, but before 
you can do that you have to speak the language, you have to 
understand their cultural values, you have to be aware of that, 
and it is not only that, you talked about the diplomatic aspect 
of this. We do find that, you know, there are the strategic 
corporals, if you will, down range, and so part of what we 
teach our young soldiers is you need to understand how to work 
with the U.S. country team, you need to understand that as an 
E5 or an E7 or an O3, a young captain or Navy lieutenant, you 
will be called up to the chief of mission, she is going to want 
to know or he is going to want to know what is going on in the 
country, and you have got to be able to answer that in a very 
professional manner. So the SOF operators of the future--in 
other words, I would say the SOF operators now, but the ones we 
are building for the future, they have got to be able to talk 
to the flag and general officers and the heads of state, and at 
the same time be down talking to the young NCOs [Non-
Commissioned Officer] of whatever country they are working 
with, and that ought to be an expectation of your special 
operations force, and we are working hard to make that a 
reality.
    Mrs. Davis. Mr. Sheehan, did you want to----
    Secretary Sheehan. Congresswoman Davis, yes, I would like 
to add that, you know, when I joined the Special Forces in 
1979, there was a lot of lip service to languages that, quite 
frankly, was weaker than it should have been, and quite frankly 
in the early days of Special Forces, they relied on second or 
native speakers to provide the language skills for the 
community, and as I said, there was a lot of lip service to it. 
Over the last 10 years, and sitting behind me my military 
assistant in my current job is former commander of 5th Special 
Forces Group. He made an enormous personal commitment and 
supported by the Special Forces community to train people in 
his case in Arabic and other languages, and of course as 5th 
Special Forces Groups understand is they were the ones who went 
into Afghanistan right after 9/11 and had to link up on 
horseback often with indigenous forces, and the ability to 
speak the language is absolutely fundamental to establishing 
the relationship that then enables the special operator to 
conduct the type of missions that we need executed in our 
national defense. So I consider the language training to be as 
important as being able to shoot an M4 [carbine assault rifle] 
in a tight shot group, and I think the commitment by Admiral 
McRaven and his staff is extraordinarily real, which has not 
always been the case, quite frankly.
    Mrs. Davis. Yeah, thank you. I appreciate that. I know that 
San Diego State University has had a program that I think has 
been well tested.
    Admiral McRaven. Yes, ma'am.
    Mrs. Davis. The difficulty as we have with many other 
programs is we have got to fight every year for that, and I 
think that, you know, there is a point at which we need to say, 
hey, you know, we have already taken a look at this and we have 
got to put it in the budget, so----
    Admiral McRaven. Ma'am, you will appreciate this. I was at 
a get-together just the other day, and the father of a young 
SEAL who just graduated from BUDS [Basic Underwater Demolition/
SEAL] training was there telling me about his young son who is 
going to one of the West Coast SEAL teams, and I said, Well, 
let me give him a call, and of course nothing like getting a 
call from a four star admiral when you are, you know, a brand 
new SEAL on the teams, and as I called him, he was studying his 
Farsi because he is in Farsi language training, and he was a 
little surprised to get the call from me.
    Mrs. Davis. I bet he was. Keep that up, sir.
    Admiral McRaven. I am sure you will appreciate that. I will 
leave his name out of this so it doesn't get in the record.
    Mrs. Davis. Thank you.
    Mr. Thornberry. Mr. Kline, further questions?
    Mr. Kline. No.
    Mr. Thornberry. Dr. Heck.
    Dr. Heck. Thanks, Mr. Chair, for the second round. Just one 
follow-up question to the question asked by my colleague from 
California, Mrs. Davis, regarding the integration of women into 
Special Operations. Admiral, it sounded like you said you were 
going to develop a plan to integrate them.
    Admiral McRaven. Yes, sir.
    Dr. Heck. And then determine whether or not you can do it. 
I am just curious about the cart and the horse there. Isn't, 
you know, the idea, can we integrate women, and then if we can, 
develop the plan to do it effectively?
    Admiral McRaven. Yes, sir. And what I don't want to imply 
is that this is going to be easy. Part of it is, I need to have 
a plan that looks at the DOTMLPF of this, so the doctrine, the 
manning, the training, all of those sorts of things that can 
get us to implementation of women in those particular units. So 
I am going to build the plan, the framework of the plan, if you 
will, to okay now I have got to look at the doctrine, now I 
have got to look at the training, now I have got to look at 
kind of the business case, now I have got to look at the 
standards, and the biggest issue for me are the standards. I 
get asked frequently, well, can you have gender neutral 
standards? And I said, Well, this is easy for me because I have 
never had other genders, there is only one standard. So we need 
to find out, are those the appropriate standards. Because we 
have built standards over the years, and now we have got to 
test the value of those standards. So my point is, I will 
provide the Secretary a plan for determining how we are going 
to get women into those MOSs [Military Occupational Specialty], 
but frankly then I have to test the hypothesis, if you will, by 
going through and seeing whether or not we can actually make 
that happen. And I will be perfectly honest, it is a little bit 
of a cart and horse at the same time because I just don't know 
yet until we start to really flesh this thing out in detail.
    Dr. Heck. Great. Thank you for the clarification. Thanks, 
Mr. Chair. Yield back.
    Admiral McRaven. Yes, sir.
    Mr. Thornberry. Mr. Hunter.
    Mr. Hunter. No.
    Mr. Thornberry. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman, apologize for being late. 
I appreciate the panelists, their strong leadership, sacrifice 
for our country.
    Admiral, about the organization, your vision for the 
organization, how that is coming along in relation to the 
language last year and also, you know, if there is anything 
else that you might need in terms of effectuating your vision, 
I would like to hear on that. Thank you.
    Admiral McRaven. Sir, thank you very much. I am very 
pleased that with the support of OSD [Office of the Secretary 
of Defense] and with the Joint Staff we are moving the vision 
along quite well, and just to kind of frame this again, this is 
about building the or enhancing, I should say, the global SOF 
network. As I mentioned at the beginning, we have SOF forces in 
about--we say 78 countries. Actually as of I think today we are 
in about 92 countries around the world. Sometimes that is one 
person, sometimes that is thousands of people, as we have in 
Afghanistan, but what I found in my time as the Commander of 
the Joint Special Operations Command was really the power of 
the network, and the network is an understanding that the 
better you connect people together, the more powerful that 
network will be, and sometimes it defies, you know, science 
because there is a little bit of art to it, but if you start 
connecting people at embassies and you start connecting people 
on the ground and you start connecting people in Tampa and in 
Washington, D.C., and you allow those people to communicate, 
and you give them the tools to communicate, and you give them 
the power to make decisions within the scope of what they can 
make decisions in, it is amazing what happens, and I saw it 
firsthand in my 6 years in the Joint Special Operations 
Command, and it is very powerful. So as we begin to build out 
and enhance the global SOF network, what I am trying to do is 
use the Theater Special Operations Commands, and this was a key 
component of it, Congressman, I think you are referring to, was 
use the Theater Special Operations Command as our entry point. 
As I mentioned earlier on, we are a supporting command, so the 
first thing I want to do is make the Theater Special Operations 
Commands the gold standard, if you will, for Special Operations 
Force. They are under the operational control of the geographic 
combatant commander, they are now under my combatant command, 
but the operational day-to-day operation is with the geographic 
combatant commander, so I am going to beef up the Theater 
Special Operations Commands, and then you begin to see how they 
partner with their respective partners in the region. So I 
think a great case in point is the Special Operations Command 
Europe and again our NATO SOF headquarters. I tell the story 
about when we established the NATO SOF headquarters, there were 
about 18 folks in it, 17 Americans and one Norwegian. That 
force now has about 220 folks and a brand new building there at 
the SHAPE compound. We had 300 NATO SOF warriors down range in 
Afghanistan in 2007. We now have 2,200 NATO SOF operators down 
range doing arguably one of the most important jobs around, 
building the provincial response companies. That is a function 
of networking with our partners. So if you begin to take those 
partners and you link them with other partners around the 
world, and we look at the Colombians, for example, you know. We 
have had a long-standing relationship with the Colombians. Now 
the Colombians are interested in how do they export their 
security, and it really does get back to what former Secretary 
Clinton talked about in terms of smart power, I mean, how are 
we doing that? Well, the Special Operations community through 
our Theater Special Operations Commands, through some of the 
regional, the SOF coordination centers that we are helping to 
establish out there, through that network of partners and 
allies, it becomes very, very powerful, and then we have a 
command and control, the C4I [Command, Control, Communications, 
Computers, and Intelligence] network that kind of links them 
together both on the unclass and the secure side, and so that 
is the vision and, sir, I have had great support from the 
geographic combatant commanders, great support from the Joint 
Staff, great support from OSD, and I am pleased to say we are 
moving in the right direction.
    Mr. Gibson. And just to follow up--thank you, that was very 
clear. With regard to the institution itself, SOCOM, there was 
talk at one point possibly an academy or some kind of within 
SOCOM. Is that still thinking or would there be any more ideas 
and changes in that regard?
    Admiral McRaven. Sir, we do have a Joint Special Operations 
University. That university does smaller duration courses, but 
some of the courses--in fact, Congresswoman Davis' point about 
the cultural awareness, we do a lot of that at the Joint 
Special Operations University. We are trying to get JSOU [Joint 
Special Operations University] accredited so that actually we 
can make it a degree-providing institution, and that is going 
to require a little additional support and help, but the Joint 
Special Operations University teaches our enlisted academy, 
which is just a fabulous curriculum for our E8s and E9s trying 
to become sergeant majors and command master chiefs and a whole 
host of other curriculum.
    Mr. Gibson. Thank you very much. I yield back.
    Mr. Thornberry. Admiral, do you have the authorities to 
establish these regional SOF coordination centers in other 
parts of the world? I mean, I have been to the NATO one several 
times. That is under the NATO alliance.
    Admiral McRaven. Yes, sir.
    Mr. Thornberry. But what about in these other parts of the 
world?
    Admiral McRaven. Sir, it is--I would tell you, I am not 
sure it requires, and I may be going out on a limb here in 
terms of an authority. For example, we have, without opening 
this too much in a public forum because the host nation I think 
wants to unveil it, but we have one Latin American country that 
has become very, very interested in this. They want to host it 
as a kind of an academic forum, with one of their war colleges, 
so the point of these regional SOF coordination centers is 
really just to have any forum, any forum that happens to bring 
other SOF operators together. So I have deferred to the 
geographic combatant commanders and the host nations that are 
willing to support it. So the NATO was clearly an unusual one 
because there was a NATO charter and those NATO folks are 
deploying downrange. The other two institutions that we are 
looking at really are kind of a loosely formed alliance of the 
willing that want to come, that want to have, again, academic 
forums, but by bringing SOF operators in they will start to 
talk, they will build those relationships, and of course as you 
know, they will start off as young lieutenants or captains and 
then 10 years, 20 years from now they are generals and they are 
chairmen of their Joint Chiefs, and that relationship I think 
is incredibly important to continuing to enhance our network.
    Mr. Thornberry. Absolutely. And State Department is okay 
with pursuing these things, I mean, has that been--the 
interagency, I should say, has that been a challenge?
    Admiral McRaven. Sir, we have had discussions with State 
obviously as we move forward with this, the Latin American 
country, I was down talking to the U.S. ambassador, they are 
very excited about it because their country is supporting this, 
very aggressively supporting this, but, again, sir, we don't do 
anything that doesn't have the support and approval of the 
State Department obviously.
    Mr. Thornberry. Okay. Mr. Sheehan, let me find my turned 
down page, your predecessor, Mr. Vickers, testified that he 
spent about 95 percent of his time on operations issues and the 
rest of his time on programmatic policy and budget oversight 
roles. Would you say this is true for you, too? I was surprised 
by that, so I have got to ask.
    Secretary Sheehan. Mr. Chairman, I don't think it is 95 
percent. I remember that issue came up during my confirmation, 
and I committed to not doing that. I have been less than 
successful. The term they use in the Pentagon, a demand signal, 
which basically what you are being asked to do, I understand 
why Mr. Vickers was being asked by his boss, the Secretary of 
Defense, to do policy and operations. It is a day-to-day grind 
of policy deliberation within the interagency that really sucks 
up the tremendous energy of our office.
    Now, I was around as a young captain when this office was 
created, and part of its original intent from Goldwater-Nichols 
and Nunn-Cohen was to have this oversight responsibility with 
SOCOM and, quite frankly, not only oversight of SOCOM but to 
make sure that special operations community was protected 
within the interagency process. So that role of SOLIC [Special 
Operations & Low Intensity Conflict] I have tried to put more 
emphasis on and have, so I would not say 95 percent, it is much 
less, but still I would say that my ability to do that part of 
my job has been less than I hoped to 18 months ago. Part of it 
is also a function of the staff shift within my office that the 
staffing function for the oversight part of our office is very 
diminished from what it was even 10 years ago, and that, we are 
very small. The SOCOM staff has increased almost 
logarithmically since 9/11, whereas SOLIC is the same size it 
was on 9/11, about 140 people. SOCOM staff grows by more than 
that every year, so there is a little ability of my office to 
do all those functions because I only have a handful of people 
doing it, but what we do try to do is have a close relationship 
with the SOCOM staff so we can provide a value add to that 
function, but, quite frankly, the initial vision of SOLIC 
having a service Secretary-like function, we are just simply 
not resourced to do it, and with the demand signal as a part of 
the OSD policy formula, the demand signal to do policy 
dominates my day.
    Mr. Thornberry. Well, part of the reason you made me think 
of it is your discussion about CT strategy. It is one of my 
biases that we don't do strategy very well in the United States 
Government. Have you--this is a really unfair question, but I 
will ask it anyway. Have you had the chance to read Max Boot's 
book about Invisible Armies: A History of Guerrilla Warfare 
[Invisible Armies: An Epic History of Guerrilla Warfare from 
Ancient Times to the Present]?
    Secretary Sheehan. I am very familiar with it. I think I 
read both reviews in the New York Times and Washington Post, 
and it is on one of my piles in my office at home. I haven't 
got to it yet.
    Mr. Thornberry. Well, it strikes me that your strategy is 
very consistent with the lessons he draws from, you know, 
hundreds of years of guerrilla warfare and what it takes to be 
successful against them, so it sounded familiar to me.
    Anybody else have questions? Speakers? Thank you all very 
much for being here. We are going to have votes in 5 minutes, 
and that works out well. Appreciate it. The hearing is 
adjourned.
    Admiral McRaven. Thank you, Mr. Chairman.
    [Whereupon, at 4:27 p.m., the subcommittee was adjourned.]



=======================================================================


                            A P P E N D I X

                             April 17, 2013

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 17, 2013

=======================================================================


                  Statement of Hon. James R. Langevin

 Ranking Member, House Subcommittee on Intelligence, Emerging Threats 
                            and Capabilities

                               Hearing on

            Fiscal Year 2014 National Defense Authorization

           Budget Request for U.S. Special Operations Command

                   and U.S. Special Operations Forces

                             April 17, 2013

    Thank you, Mr. Chairman, and thank you to our witnesses for 
appearing before us today. Our Special Operations Forces are 
some of the most capable personnel in our military, and they 
are in high demand across the globe. In the last few years, we 
have seen a remarkable growth in the size and scope of those 
forces. In large part, that's a reflection of the strenuous 
demands two wars have put on them, but it is also an 
acknowledgement of how their highly specialized capabilities 
are so important today and into the future.
    I believe it is reasonable to assume that our requirement 
for highly trained and superbly equipped Special Operations 
Forces is not going to decrease any time soon, even as we're 
faced with declining defense budgets. While the high-profile, 
direct-action missions SOF undertakes are well known, we must 
make sure that they are equally ready to address their broader 
set of missions, ranging from unconventional warfare and 
foreign internal defense to civil affairs, information 
operations, and counterproliferation, among others. Given the 
increasingly complex and interconnected world we live and 
operate in, I believe the need for such capable forces across 
the full spectrum of operations will only increase in the days 
ahead. Today, I look forward to exploring both how we're going 
to meet the challenge of providing our commanders with the SOF 
resources they need to provide for our national security, as 
well as the hard choices we will need to make to get there.
    Most importantly, we need to take care of these 
extraordinary men and women--and their families. They have 
given everything we have asked of them for more than a decade 
of war, and they have paid an enormous cost. I understand that 
Special Operations Command has some specific proposals on how 
to help ease their burden, and I look forward to hearing about 
them today. 

[GRAPHIC] [TIFF OMITTED] 80762.001

[GRAPHIC] [TIFF OMITTED] 80762.002

[GRAPHIC] [TIFF OMITTED] 80762.003

[GRAPHIC] [TIFF OMITTED] 80762.004

[GRAPHIC] [TIFF OMITTED] 80762.005

[GRAPHIC] [TIFF OMITTED] 80762.006

[GRAPHIC] [TIFF OMITTED] 80762.007

[GRAPHIC] [TIFF OMITTED] 80762.008

[GRAPHIC] [TIFF OMITTED] 80762.009

[GRAPHIC] [TIFF OMITTED] 80762.010

[GRAPHIC] [TIFF OMITTED] 80762.011

[GRAPHIC] [TIFF OMITTED] 80762.012

[GRAPHIC] [TIFF OMITTED] 80762.013

[GRAPHIC] [TIFF OMITTED] 80762.014

[GRAPHIC] [TIFF OMITTED] 80762.015

[GRAPHIC] [TIFF OMITTED] 80762.016

[GRAPHIC] [TIFF OMITTED] 80762.017

[GRAPHIC] [TIFF OMITTED] 80762.018

[GRAPHIC] [TIFF OMITTED] 80762.019

[GRAPHIC] [TIFF OMITTED] 80762.020

[GRAPHIC] [TIFF OMITTED] 80762.021

[GRAPHIC] [TIFF OMITTED] 80762.022

[GRAPHIC] [TIFF OMITTED] 80762.023

[GRAPHIC] [TIFF OMITTED] 80762.024

[GRAPHIC] [TIFF OMITTED] 80762.025

[GRAPHIC] [TIFF OMITTED] 80762.026

[GRAPHIC] [TIFF OMITTED] 80762.027

[GRAPHIC] [TIFF OMITTED] 80762.028

[GRAPHIC] [TIFF OMITTED] 80762.029

?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 17, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. A great deal has been written and said about the 
relationship between SOF and the CIA. How should Special Operators and 
CIA share responsibilities that interlock and overlap, given that their 
respective strengths and weaknesses are distinctively different? Do we 
need to look at additional deconfliction, and do you feel the current 
command structure allows for that?
    Admiral McRaven. Although SOF and CIA maintain different 
perspectives regarding operational and security activities, there is 
also considerable common ground shared on a variety of issues, 
especially in the counterterrorism (CT) arena. Utilizing the inherent 
strengths and authorities of both organizations allows for a more 
effective application of USG capabilities worldwide. SOF maintains a 
consistent and productive working relationship with CIA on multiple 
levels, resulting in a complementary and effective partnership. This 
close relationship is manifested through the successful conduct of 
global planning and operations, and highlights the strengths of both 
organizations while limiting redundancy and duplication of effort.
    Mr. Langevin. What are some of the more difficult advanced 
technology requirements that SOF need to maintain an edge on the 
battlefield? As we withdraw from major combat in Afghanistan, will the 
need for nonlethal weapons and directed energy weapons increase? How 
are you managing your research and development investments as budgets 
decline?
    Admiral McRaven. a. In no particular order (to remain unclassified) 
they are: Comprehensive Signature Management; Human Performance; 
Weapons of Mass Destruction (WMD) detection and render safe 
technologies; technologies that improve Small Unit Dominance; First 
pass accuracy and enhanced lethality weapons, Scalable Effects Weapons 
(SEW), and Directed Energy Weapons (DEW); political/social/cultural 
assessment and response prediction tools; Vastly improved situational 
awareness equipment and displays, enhanced sensors and Clandestine 
Tagging, Tracking, and Locating technologies; Leap ahead power and 
energy; Revolutionary Command, Control, Communications and Computers 
capabilities; and improved Sensitive Site Exploitation.
    b. Yes. SOF will increasingly need the ability to precisely apply 
exact weapons effects on specific targets with near-zero collateral 
damage. SEW can be used in specific instances to stop vehicles/vessels, 
incapacitate personnel, or precisely on targets not intended to cause 
death or catastrophic damage to equipment or infrastructure.
    c. Through the use of our Special Operations Advanced Technology 
Collaborative Process, we seek to cooperatively develop technology to 
reduce or remove the capability gaps in the high priority areas 
detailed above. This process allows better synchronization of SOF-
related technology initiatives occurring with the Department of Defense 
and across other Government agencies. It also enables increased 
collaboration with external stakeholders such as industry and academia.
    Mr. Langevin. How do you maintain language and cultural capability 
when deployments are focused more on combat operations and less on 
global engagement in security assistance operations? Do you feel your 
forces are adequately postured and trained to pivot to increasing needs 
outside of the CENTCOM AOR?
    Admiral McRaven. USSOCOM is concerned about the impact of iterative 
rotations to the CENTCOM AOR of SOF units and individuals that are 
regionally aligned to other AORs. This has degraded global language and 
cultural capability in several ways.
    Predeployment preparation for OEF includes instruction in the 
languages and cultures of Afghanistan because most SOF missions entail 
close work with Afghan partners. This is beneficial for SOF regionally 
oriented to CENTCOM but greatly reduces the time, classroom space, and 
funding available for non-CENTCOM AOR oriented SOF to sustain and 
enhance language and culture capabilities for their assigned AORs. The 
net result is that too much of SOF language capability remains at the 
lower proficiency levels (less than level 2). USSOCOM's goal is for at 
least 33% of the force with Level 1 proficiency, and another 33% at 
Level 2 proficiency.
    The SOF schoolhouses continue to refine and improve the language 
and culture instruction provided within the initial SOF qualifying 
pipelines. Three of these schools now include Defense Language 
Institute detachments, to ensure a constant flow of basic and some 
intermediate language and cultural capability into SOF units, but 
capacity for higher proficiency is limited.
    Other areas of concern remain with Service resources and policies 
that indirectly support and affect SOF language and cultural 
capability, as all DOD agencies evaluate their priorities and fiscal 
constraints. Initiatives aiming to gain language and cultural 
capability through targeted recruiting (e.g., the Military Accessions 
Vital to the National Interest pilot program) are a cost effective 
means of increasing advanced capability and must continue to be 
supported by all Services.
    Mr. Langevin. Can you outline for the committee what additional 
security force assistance authorities (SFA) may be needed? How are 
present authorities not able to meet SOF-peculiar needs, and what 
examples can you give where additional--or adjusted--authorities would 
improve the ability for the U.S. to provide security assistance and 
thereby enable stability in an important region?
    Admiral McRaven. Since my testimony on April 17, I have had 
numerous meaningful engagements with colleagues throughout the State 
Department. Together, we are relooking the Global Security Contingency 
Fund (GSCF) and attempting to identify broader authorities in that fund 
that will help meet SOF requirements. State has been very responsive 
and it is my hope that we can move forward together.
    However, the following reflects my position prior to the recent 
meetings with State officials on the question of deficiencies in 
existing security force assistance authorities.
    Both Section 1206 and Global Security Contingency Fund (GSCF) were 
purpose-built to respond to emerging opportunities and threats. 
Therefore, they leave TSOCs without reliable authority and/or resources 
to implement their Chief of Mission-approved regional engagement plans. 
TSOCs require a comprehensive authority that will help national 
security decision-makers detect and potentially mitigate emerging 
threats and instability before they require the use of more reactive 
authorities like 1206 or GSCF.
    Additionally, the current slate of foreign military assistance 
authorities leaves TSOCs unable to plan or implement their unique 
strategies for theater SOF engagement with any budgetary certainty. 
Accordingly, as they develop their plans for partner engagement 
activities, TSOCs are left to patch together several authorities 
(almost universally intended for different purposes), resulting in 
limited effectiveness due to legal, policy and regulatory constraints.

    Mr. Langevin. A great deal has been written and said about the 
relationship between SOF and the CIA. How should Special Operators and 
CIA share responsibilities that interlock and overlap, given that their 
respective strengths and weaknesses are distinctively different? Do we 
need to look at additional deconfliction, and do you feel the current 
command structure allows for that?
    Secretary Sheehan. Existing commands and organizations provide the 
structure by which we apply both DOD and CIA strengths toward our 
counterterrorism goals. I believe that the current structure 
facilitates appropriate de-confliction of responsibilities and 
activities.
    Mr. Langevin. What are some of the more difficult advanced 
technology requirements that SOF need to maintain an edge on the 
battlefield? As we withdraw from major combat in Afghanistan, will the 
need for nonlethal weapons and directed energy weapons increase? How 
are you managing your research and development investments as budgets 
decline?
    Secretary Sheehan. The technology areas that we find most 
challenging are in the areas of signature reduction, nanotechnology, 
and intelligence, surveillance, and reconnaissance (ISR) sensors. Much 
of this is reflective of how fast technology in the private sector is 
changing. DOD is also continuing to push the development of Tag, Track, 
and Locate (TTL), alternative power systems, increased operator 
protection (lightweight armor and material), special communications, 
and operational architecture for coalition-centric Special Operations 
Forces (SOF) communications networks. Finally, DOD is exploring 
aviation, undersea, and ground mobility modification improvements to 
increase our capability to get to the target and protect operators.
    Non-lethal directed energy and kinetic capabilities have the 
potential to play a significant and increasing role in supporting U.S. 
force reductions in Afghanistan, such as in securing operating sites 
with reduced numbers of personnel. These nonlethal systems are also 
relevant to building partner forces' capability to respond responsibly 
and lawfully to situations such as civil unrest.
    When added to a growing number of nonlethal ocular interruption 
devices and traditional nonlethal weapons used by the force for 
checkpoint, convoy and area security missions, these capabilities serve 
as a ``force multiplier,'' enabling smaller, reduced U.S. security 
forces or enabling host nation security forces to secure sizeable areas 
such as, but not limited to, forward operating bases (FOBs), air bases, 
and port facilities. Additionally, a growing array of blunt impact and 
directed energy nonlethal weapons, devices, and munitions offer U.S. 
forces with a significant ``building partner capacity'' and ``rule of 
law'' mentoring tool when working with coalition and host nation 
forces. We plan for U.S. Special Operations Command (USSOCOM) to 
continue to leverage and collaborate with the Military Departments/
Services and DOD agencies on a number initiatives that will provide SOF 
the ability to invest in comparative SOF advantage in the future. This 
is an area that both the Commander, USSOCOM and I are continuing to 
review in this budget and future budgets.
    Mr. Langevin. How do you maintain language and cultural capability 
when deployments are focused more on combat operations and less on 
global engagement in security assistance operations? Do you feel your 
forces are adequately postured and trained to pivot to increasing needs 
outside of the CENTCOM AOR?
    Secretary Sheehan. Rotational deployments of Special Operations 
Forces (SOF) units not regionally aligned to the U.S. Central Command 
(USCENTCOM) area of responsibility have indeed taken a toll on the 
language, regional expertise, and culture capabilities of those units 
for their aligned regions. Operating tempo (OPTEMPO) limits the ability 
to retain and retrain SOF for primary areas of responsibility while 
still preparing for the next USCENTCOM deployment. This is being 
addressed to a degree by USSOCOM force structure growth; however, that 
growth also places increased stress on SOF training resources.
    OPTEMPO reduces opportunities to send mid- and senior-grade 
operators to advanced regional education and professional development 
programs such as Foreign Professional Military Education and the 
Regional Centers program. SOF leverages these programs to improve 
specific regional language skills and cultural understanding.
    Over the last year, USSOCOM was successful in sending more 
operators to Regional Centers; however, during the previous two years 
these slots were filled primarily by senior-grade USSOCOM Headquarters 
staff officers due to operational units executing rotational 
deployments. The returns on these investments were
limited.
    I support recent USSOCOM initiatives to implement higher language 
capability requirements and improved training processes for its 
components. In conjunction with USSOCOM, we will continue to pursue 
native/heritage recruiting, valuing language and regional capabilities 
in selections and promotions, language testing and incentives, 
maintaining Defense Language Institute detachments at some of our 
components, adding SOF-specific school billets and funding from the 
Services for foreign education, and encouraging the Services to award 
Intermediate Level Education and Senior Level Education equivalency for 
Foreign Professional Military Education programs.
    Mr. Langevin. Can you outline for the committee what additional 
security force assistance authorities (SFA) may be needed? How are 
present authorities not able to meet SOF-peculiar needs, and what 
examples can you give where additional--or adjusted--authorities would 
improve the ability for the U.S. to provide security assistance and 
thereby enable stability in an important region?
    Secretary Sheehan. The current patchwork and temporary nature of 
authorities hinders the Department's ability to establish mature 
management processes and ensure coherent, complementary security 
assistance efforts. As an example, although Section 1206 Global Train 
and Equip authority is a key authority for DOD, its temporary nature 
and single-year funds inhibit the overall effectiveness of capacity-
building efforts. Security forces assistance authorities for Special 
Operations Forces (SOF) should reflect the Nation's strategic shift 
toward strengthening partnerships and further developing low-cost, 
small-footprint solutions to achieve national security objectives. 
Through authorities that foster persistent engagement, U.S. SOF will be 
able to develop and maintain lasting relationships with key partners. 
These lasting relationships are essential to build the capabilities 
needed to address a range of contingencies that may result from the 
increasingly diffuse nature of threats, such as those in North and West 
Africa, the Horn of Africa, and potentially Syria. Supporting and 
partnering with Ministry of Defense and Ministry of Interior forces 
would also greatly enhance security assistance efforts by allowing U.S. 
SOF to engage the most relevant forces in the partner nation. The 
establishment of and demonstrated commitment to these relationships 
will be paramount in ensuring that U.S. SOF can adequately conduct 
counterterrorism, unconventional warfare, and irregular warfare 
missions with the support of or alongside foreign SOF.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY
    Mr. Thornberry. What SOF core mission areas and activities remain 
of critical importance to U.S. national security? In other words, given 
fiscal constraints, what should remain off the chopping block?
    Admiral McRaven. Title X, Section 167 describes USSOCOM's core 
Special Operations activities as direct action, strategic 
reconnaissance, unconventional warfare, foreign internal defense, civil 
affairs, and psychological operations, now called Military Information 
Support Operations (MISO). The Secretary of Defense holds me 
responsible to organize, train, and equip SOF for those activities, and 
adds counterterrorism and countering the proliferation of weapons of 
mass destruction to the SOF core mission list.
    The Defense Strategic Guidance (DSG) calls for a future joint force 
that is ``agile, flexible, and ready'' and possessing the global reach 
necessary to ``capitalize on networks and inter-dependency to maximize 
effectiveness in deterrence and evolving war.'' Given this broad 
guidance and the asymmetric nature of many of our future security 
challenges, all special operations core missions and activities remain 
of critical importance to U.S. national security. Each Geographic 
Combatant Commander has unique requirements, and I would not want to 
put their requirements at risk by eliminating capabilities.
    After ten years of conflict, during which the focus was largely on 
direct action and counterterrorism, my intent is to rebalance SOF 
toward more ``indirect'' activities, such as foreign internal defense. 
This will help support the DSG's emphasis maintaining strategic 
partnerships as an essential element of national security.
    Mr. Thornberry. Nearly 12 years after 9/11--what can we improve 
upon in the near and the long term?
    Admiral McRaven. In the 12 years since 9/11, Special Operations 
Forces (SOF) have become known for and have excelled at direct-action 
mission sets. Interagency processes to support these capture/kill/
rescue missions have also become finely tuned. However, as security 
challenges are increasingly networked across geopolitical borders, it 
is time to turn our emphasis back toward the indirect approach as a 
critical component in the effort to deter, disrupt, and deny sanctuary 
to our adversaries. USSOCOM will continue to ensure our Nation has the 
best precision strike force in the world. Through the indirect 
approach, SOF can also act to preempt conflict by strengthening 
relationships with our international partners through building partner 
capacity, improving information sharing platforms and agreements, 
providing assistance to humanitarian agencies, and engaging key 
international populations. Indirect efforts increase partner 
capabilities to generate sufficient security and rule of law, address 
local needs, and advance ideas that discredit and defeat the appeal of 
violent extremism.
    The January 2012 Defense Strategic Guidance directed the Department 
of Defense to build strategic partnerships through persistent 
engagement with the interagency and partner nations. Under the premise 
that ``you can't surge trust'' in times of crisis, USSOCOM's vision is 
focused on a global SOF network of U.S. SOF, interagency, allies and 
partners. Thickening these relationships builds trust and increases 
security options in the near and long term. Through the indirect 
approach, SOF is able to amplify our partners' capabilities, 
exemplifying the claim by the Secretary of Defense that ``building 
capacity elsewhere in the world also remains important for sharing the 
cost and responsibilities of global leadership.''
    To support this renewed focus on indirect action, the U.S. 
Government requires a coordinated interagency vetting process for 
indirect-action missions that is as streamlined as the process for 
direct-action mission sets. This would improve Department of Defense's 
responsiveness in the face of emerging opportunities and requirements. 
The need for a clear process for indirect-action mission sets has 
emerged as a critical challenge.
    Mr. Thornberry. There has been a great deal of press about very 
sensitive special operations activities over the past few years, 
culminating with the raid to kill Osama bin Laden. Are there concerns 
that SOF and the classified Special Mission Units have been perhaps too 
much in the limelight? Are there any concerns with leaks of classified 
information to the press from the special operations community, and 
what is being done about this? Are there any ongoing investigations?
    Admiral McRaven. I have been very concerned about the volume and 
types of information put forth recently in books, newspapers and 
magazine articles. The publication of sensitive information, especially 
classified information that discloses Special Operations Forces 
tactics, techniques and procedures; provides details about past 
classified missions or other operational activity; or identifies 
operators from Special Mission Units potentially puts future 
operational missions, activities and personnel at risk for compromise. 
Potential compromise could lead to loss of life, loss of critical 
information and equipment, or negate operational advantages that we 
require to successfully conduct our missions.
    To that end, I have reemphasized the principles underlying 
operational security and ``need to know.'' Commanders at all echelons 
have recommunicated those ideas to their units, with the understanding 
that when it comes to disclosing classified information our people are 
subject to legal and UCMJ disciplinary action. We cannot afford to pay 
the consequences of not properly safeguarding that which is entrusted 
to us. We must reclaim the era of the Quiet Professional, when SOF 
activities were not broadcast for all to see and hear.
    At this time, we are not aware of any DOD media leak 
investigations.
    Mr. Thornberry. What role will SOF play in Afghanistan as we 
withdraw forces, and then beyond 2014? Can you outline for the 
committee what commitment will be required and how this will impact the 
rebalancing of SOF across the globe?
    Admiral McRaven. The role of SOF in Afghanistan throughout the 
withdrawal of forces and post 2014 is to provide a scalable force in a 
unified US/NATO command structure focused on providing operational 
level train, advise, and assistance to the broad array of Afghan 
Security Institutions and Afghan Special Forces. Additionally, SOF will 
conduct counter terrorism operations to deny designated trans-national 
terrorist groups sanctuary in any part of Afghanistan.
    The overall commitment of SOF to achieve our Nation's post 2014 
goals in Afghanistan remains predecisional. However, I am confident 
that U.S. Special Operations Command is prepared to resource our post 
2014 efforts with whatever force disposition is required with no impact 
of rebalancing SOF across the globe.
    Mr. Thornberry. How have ten years of repetitive combat deployments 
impacted the force and what challenges remain?
    Admiral McRaven. Across the board we have noted increases in key 
indicators of stress on the force over the past ten years. These trends 
have continuously increased over the past decade. The treatment rates 
for a host of mental health issues have increased, suicides have 
increased and the force has told us, unequivocally, that the pace of 
operations and the nature of those operations are taking a toll. Beyond 
what is reported in the medical system, SOCOM has collected data from 
the force directly through face-to-face meetings and surveys that tells 
us that there are unmet needs in terms of taking care of the 
psychological, physical and social needs of the force. As an 
enterprise, we have stepped out aggressively to address the acute needs 
of the force and their families in these areas. As these initiatives 
come to fruition, we will keep this committee apprised of their 
impacts.
    Equally important to addressing those acute challenges that our 
forces and families are confronting, we are institutionalizing systems 
of support that will prepare our forces for the strategic challenges of 
the future. By embedding trusted and skilled professionals within our 
tactical formations and leveraging state-of-the-art practices, programs 
and equipment, we hope to optimize the performance of our force and 
reinforce the wellbeing of their families. We foresee these initiatives 
becoming an integral part our approach to human capital development and 
preservation and ask for your continued support in these areas.
    Mr. Thornberry. What changes should be considered to the Joint 
Special Operations Command in the coming years? Can you provide us with 
more detail during the closed session?
    Admiral McRaven. [The information referred to is classified and 
retained in the committee files.]
    Mr. Thornberry. How are the roles of women in SOF changing?
    Admiral McRaven. Women have served alongside SOF for years. In 
order to meet operational requirements, we have employed exceptions to 
policy restricting women in combat. We are now looking to formalize the 
process and give operational leaders the ability to meet their missions 
with the most qualified and able personnel, regardless of gender.
    My staff is currently examining the implications of opening all SOF 
specialties and career fields to women. We will make the recommendation 
to the SecDef based on the outcome of the studies of my staff in 
keeping with my responsibility as the SOF force provider. I am 
committed to providing this Nation with the most capable Special 
Operations Force while providing opportunities for all SOF personnel to
succeed.
    Mr. Thornberry. What challenges remain with SOF integration with 
conventional or general purpose forces?
    Admiral McRaven. After 12 years of continuous combat in Iraq, 
Afghanistan, and other areas around the globe, SOF and general purpose 
forces (GPF) have never been more integrated than we are today. SOF has 
had up to battalion sized GPF forces assigned to its Task Forces and 
multiple operations have been conducted without any major command and 
control, and tactics, techniques, and procedures (TTP) miscues. 
Everyday on the battlefield GPF units support SOF operations and vice 
versa. SOF units participate with GPF forces in predeployment training 
and conduct multiple mission rehearsal exercises to insure trust, 
confidence, and understanding on the battlefield. In addition to 
predeployment training, SOF units routinely participate with GPF forces 
during National Training Center and Joint Readiness Training Center 
rotations to increase transparency and understanding of SOF TTPs. 
Everyday SOFs and GPFs operate side by side all over the globe to keep 
pressure on violent extremist organizations, train partner nation 
forces, and conduct humanitarian assistance operations. Again, SOF and 
GPF have never been more synchronized and mutually supported than they 
are today.
    Mr. Thornberry. Concerns have been raised about the pace of growth 
within the command and the stress that growth places on the standards 
and training of the force. What are your concerns regarding the quality 
of the forces amidst such rapid and notable growth?
    Admiral McRaven. As a result of continued Congressional support of 
Special Operations Forces (SOF), the increased growth has not 
diminished the quality of the forces. Since the events of Sept 11 2001, 
SOF has grown at 3-5% per year rate. This growth was adequately 
planned, resourced, and measured to ensure the high quality of the 
force was sustained. Subordinate SOF Component Commander's monthly 
readiness reports continue to maintain a positive assessment on their 
readiness standards and their ability to execute missions. While this 
growth has placed some additional demands on institutional training, 
the standards have not waivered. To ensure these standards are 
maintained, U.S. Special Operations Command (USSOCOM) publishes and 
updates SOF Baseline Interoperable Standards for various SOF 
competencies. These institutions are periodically visited by a Joint 
SOF Assessment Team (JSAT) made up of subject matter experts to ensure 
these standards are maintained.
    Mr. Thornberry. Can you outline any changes you are considering to 
SOCOM's acquisition framework and authorities?
    Admiral McRaven. USSOCOM has proposed an acquisition-related 
legislative proposals for the FY14 legislative cycle which if enacted 
would provide more robust support to the Special Operations Forces 
(SOF) warfighter or enhance our ability to deal with excess property.
    The proposal would amend section 1903(a) of title 41 to expand the 
circumstances under which the special emergency procurement thresholds 
and authorities contained within that statute may be utilized. 
Currently, the statute applies an elevated simplified acquisition 
threshold and micropurchase threshold to acquisitions that are either 
in support of a contingency operation or that facilitate the defense 
against or recovery from nuclear, biological, chemical, or radiological 
attack against the United States. USSOCOM's proposed amendment would 
apply these same elevated thresholds to acquisitions in support of an 
operation both covered by an execute order (EXORD) and involves 
USSOCOM. The concept is that as we move away from declared 
contingencies, USSOCOM still needs the ability to employ the same 
acquisition thresholds that were available in those contingency 
settings to the nondeclared contingency environment in order to 
properly support the deployed SOF operator. I have been advised that 
this proposal was formally transmitted to Congress and request your 
support. Our contracting officers are stretched thin and anything we 
can do to alleviate their workload will directly translate into better 
support to my operators.
    Mr. Thornberry. Please update the committee on SOCOM's 
intelligence, surveillance, and reconnaissance (ISR) requirements. What 
manned and unmanned systems are you investing in, and how do you 
coordinate with the Services in this critical area?
    Admiral McRaven. SOCOM maintains a variety of persistent ISR 
capability requirements. Special Operations Forces (SOF) should be able 
to detect, identify, and locate individual and groups of terrorists, 
terrorist facilities, equipment, weapons, financial and information 
resources, without reciprocal detection. SOF must monitor and track 
individual and groups of terrorists, terrorist facilities, equipment, 
weapons, financial and information resources, without reciprocal 
detection, from initial contact through a desired end state, including 
destruction, capture, or exploitation, and monitor and exploit 
terrorist communications and surveillance methods and equipment, 
without reciprocal detection. Coalition and interagency leaders, 
collectors, analysts, planners, and execution elements must be linked 
within a collaborative environment in order to support this enterprise.
    SOCOM continues to require a mix of manned and unmanned as well as 
remote ISR, all-weather, day and night platforms, with long on-station 
loiter, multi-sensor modularity and ability to support emerging 
capabilities. Capabilities should be rapidly expeditionary, able to 
operate from unimproved sites and afloat, and maintain suppressed 
signature (noise and visual).
    SOCOM continues to optimize organic SOF ISR capabilities, including 
communications systems and architectures, Processing, Exploitation, and 
Dissemination (PED) of networked information, ground, air, maritime 
sensor capacities, and better utilization and synchronization of SOF 
human sensor activities. SOF requirements for ISR far exceed organic 
resources, and we continual pursue support from the Services. We engage 
Joint Staff for geographic component command-requested ISR assets in 
support of SOF to provide needed communications architecture/bandwidth 
to support SOF ISR needs, manpower to support ISR platforms (aircrew, 
PED), and accelerated fielding of service-programmed ISR to SOF. We 
also continue to develop allied relationship and pursue partnerships to 
improve regional capabilities--i.e. sensors, platforms and personnel, 
and tailored enhancement of partner nation/host nation capabilities 
through train, equip, and advise activities
    Mr. Thornberry. Can you outline your approach to update the current 
outdated fleet of SEAL underwater delivery vehicles (SEAL SDVs)? Are 
you concerned that we do not have a capable long-range mini-submarine 
to deliver SEALs to denied maritime environments?
    Admiral McRaven. The SDV Mk 8 Mod 1 will be phase-replaced by the 
Shallow Water Combat Submersible (SWCS) Block 1. The SWCS, a wet combat 
submersible, will deliver improved performance in terms of range, 
speed, payload, operating depth and communications. The SWCS is 
scheduled for initial operational capability in FY2015. SWCS will 
provide theater commanders with the operational capability to conduct 
SOF undersea operations in the 2015-2032 timeframe.
    In the interim, we have been modernizing the in-service Mk 8 Mod 1 
SEAL Delivery Vehicle (SDV) through a series of upgrades. Recent 
efforts include enhanced computer upgrade (new operating system), a 
sonar replacement, increased navigation accuracy for more precise 
situational awareness, improved communications in various spectrums and 
diver thermal protection. The sonar systems and improved technologies 
will be transferred to SWCS as SDVs reach end of service life and are 
retired from the fleet.
    The Dry Combat Submersible (DCS) advanced technology development 
strategy is currently developing prototypes of dry, one atmosphere, 
diver lockout submersibles, overcoming the thermal protection issues of 
the SDV and SWCS and increasing range. These prototypes are using 
international commercial design, construction, testing and 
classification standards and processes. Two contracts, awarded June and 
December 2012, for the rapid design, construction, build and test of 
the prototypes are scheduled for delivery in the August 2014 and 
December 2014 timeframes. Testing, evaluation and lessons learned from 
the prototype efforts will support a goal of establishing a competitive 
Dry Combat Submersible development program in 2016 with a planned 
initial operational capability in 2018.
    The success of both the SWCS and DCS programs are critical for our 
future maritime mobility capabilities.

    Mr. Thornberry. What SOF core mission areas and activities remain 
of critical importance to U.S. national security? In other words, given 
fiscal constraints, what should remain off the chopping block?
    Secretary Sheehan. I believe the full range of special operations 
activities, as listed under Title 10, United States Code, continue to 
prove necessary and mutually supportive. When taking into consideration 
the current Defense Strategic Guidance, Special Operations Forces (SOF) 
are uniquely capable of meeting many of the primary missions of our 
U.S. armed forces. The SOF core mission areas underpin the skills and 
capabilities required to conduct effective counterterrorism and 
irregular warfare activities, build partner capacity, and deny safe 
haven to threat networks--among other specific mission areas in which 
SOF remain the force of choice.
    At this time I would not advocate any changes to USSOCOM's 
statutory responsibilities.
    Mr. Thornberry. Nearly 12 years after 9/11--what can we improve 
upon in the near and the long term?
    Secretary Sheehan. A decade of war and a consistently high demand 
signal for Special Operations Forces (SOF) have resulted in a physical 
and emotional stress on our force and families. I support the U.S. 
Special Operations Command (USSOCOM) Preservation of the Force and 
Families initiatives that focus on enhancing readiness through 
innovative and interactive approaches designed to prepare our SOF 
personnel more effectively for the current fight as well as our future 
security challenges. These efforts build on existing service 
initiatives but also recognize the unique demands placed upon SOF 
personnel. They seek to improve predictability in the training and 
deployment cycles of units and individuals to provide a more 
sustainable balance with training and deployment as well as family 
reintegration. In addition, USSOCOM is developing programs to enhance 
the physical and psychological readiness of our force through dedicated 
resources at the unit level that will integrate injury prevention, 
resiliency, and rehabilitative services throughout the entire SOF 
readiness/deployment cycle.
    Additionally, I am encouraged by the improvements over the past 
decade in the establishment and expansion of DOD authorities aimed at 
building partner capacity and executing the defense strategy to defeat, 
deter, and deny terrorist threat networks. Post 9/11, the authorities 
enacted in Section 1206 and Section 1203 (formerly subsection 1207(n)) 
have proven effective in National strategic efforts to build the 
capacity of foreign partners. Further, authority enacted in Section 
1208 has been a critical tool for Geographic Combatant Commanders to 
employ partner forces to support U.S. SOF operations. I believe there 
is still room for improvement as we continue to fine-tune these 
authorities to address a wider range of security challenges. 
Specifically, I would like to look at methods to improve the 
flexibility of these authorities to provide for more persistent, 
multiyear engagements with key foreign partners. I believe this is a 
key area of consideration to enhance our effectiveness in creating 
preventive approaches to counterterrorism and countering threat 
networks in support of the new defense strategy.
    Mr. Thornberry. There has been a great deal of press about very 
sensitive special operations activities over the past few years, 
culminating with the raid to kill Osama bin Laden. Are there concerns 
that SOF and the classified Special Mission Units have been perhaps too 
much in the limelight? Are there any concerns with leaks of classified 
information to the press from the special operations community, and 
what is being done about this? Are there any ongoing investigations?
    Secretary Sheehan. Yes, there are concerns within the Special 
Operations Forces (SOF) community that very sensitive special 
operations activities are increasingly subject to media coverage. I am 
particularly concerned that unauthorized disclosures related to the 
techniques, tactics, and procedures used against Al Qaeda will 
eventually cost lives.
    I do not, however, believe that unauthorized disclosures are 
endemic among the SOF community. The overwhelming majority of the SOF 
community operates at an extremely high tempo for extended periods in 
relative obscurity. Our operators desire no more than the respect and 
admiration of their peers, and rarely seek the public spotlight. 
Admiral McRaven has been very proactive in addressing unauthorized 
disclosures with the force, and he has my full support.
    Mr. Thornberry. What role will SOF play in Afghanistan as we 
withdraw forces, and then beyond 2014? Can you outline for the 
committee what commitment will be required and how this will impact the 
rebalancing of SOF across the globe?
    Secretary Sheehan. Although the specific roles that Special 
Operations Forces (SOF) will play in post-2014 Afghanistan remain to be 
determined, denying Al Qaeda safe-haven in both Afghanistan and the 
Pakistan border region remains a national priority for both the United 
States and Afghanistan. U.S. SOF are uniquely qualified not only to 
train, advise, and assist Afghan National Security Forces' efforts to 
deny Al Qaeda sanctuary within Afghanistan, but also to ensure that the 
Taliban, Haqqani network, and other terrorist facilitators pose no 
threat to Afghan sovereignty post-2014.
    As Al Qaeda threats emerge in Syria, the Sahel, and elsewhere, the 
drawdown of conventional forces and SOF in Afghanistan will provide 
additional options by which we can rebalance against those other 
threats.
    Mr. Thornberry. The previous Assistant Secretary of Defense for SO/
LIC, Mike Vickers, commented to the press that he spent about 95% of 
his time on operations issues and the rest of his time on programmatic, 
policy, and budgetary oversight roles. Do spend the same amount of time 
on operations? With so much time being spent on operational issues is 
there concern that you are missing the larger planning, policy, and 
budgetary roles?
    Secretary Sheehan. The planning, policy, and budgetary issues 
facing the Special Operations Forces (SOF) community are all intimately 
tied to operational issues. In the policy realm, we are closely 
involved in developing, coordinating, and approving operational 
concepts and overseeing their execution. For this reason, my time ratio 
spent on one area or another is difficult to define quantitatively. The 
consistently high demand signal for SOF, coupled with the nature of 
operations that we are asking SOF to accomplish certainly factors 
significantly into the time that I and my staff must dedicate to 
operational issues. I believe we are effectively accomplishing my 
statutory responsibilities to oversee special operations activities and 
to advise the Secretary of Defense on all SOF-related matters.
    Mr. Thornberry. A recent report on Special Operations Forces by the 
Council on Foreign Relations suggested that, ``the Office of the 
Assistant Secretary for Special Operations/Low Intensity Conflict has 
difficulty fully providing civilian oversight of U.S. Special 
Operations Command's policy and resources as directed by law.'' Do you 
agree with this assessment? Can you outline for the committee how your 
office conducts oversight of policy and resources?
    Secretary Sheehan. I, along with my staff, exercise the policy and 
resource oversight of U.S. Special Operations Command (USSOCOM) through 
multiple processes and forums.
    In the policy realm, we are intimately involved in developing, 
coordinating, and approving operational concepts and overseeing their 
execution. Although it is true that USSOCOM has devoted significant 
resources to developing operational plans and coordinating specific 
activities in support of those plans, ultimately, I am the principal 
civilian advisor to the Secretary of Defense for special operations and 
am responsible for recommending approval or disapproval of 
modifications to those plans. In addition, my office routinely 
represents the Department of Defense in numerous interagency forums 
that shape strategies for employment of Special Operations Forces (SOF) 
and approval of specific activities and operations. Although the volume 
of USSOCOM efforts is important for implementation and may appear 
overwhelming in nature, I am confident that I and my staff provide 
meaningful oversight and make appropriate recommendations both to the 
Secretary of Defense and to other senior Administration officials.
    In the resourcing area, we are constantly engaged in the 
prioritization and decision-making processes that affect the funding, 
equipping, and resourcing of SOF. As a sitting member of the governing 
resourcing bodies both within USSOCOM and DOD, I and my staff provide 
the requisite civilian oversight over often complex and difficult 
trade-off decisions for SOF resources. Again, the ultimate decisions on 
SOF resourcing are made by the Secretary of Defense with substantial 
input from me, as provided by law. Even in those few areas that 
USSOCOM, by law, may exercise the functions of a head of an agency, I 
have significant input and routinely provide advice, including through 
my staff, to USSOCOM.

                                  <all>

</pre></body></html>
